No.

Zbe

6upreme Court of the %Witt)) Otateo
THE CHURCH OF JESUS CHRIST OF
LATTER-DAY SAINTS, SERVANT:
XIU JIAN SUN, THE SPIRITUAL ADAM
Petitioners,
v.
PRESIDENT OF U.S.A. MR.
DONALD JOHN TRUMP - CAIN
THE WHITE HOUSE
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The District Of Columbia Circuit

BRIEF FOR PETITIONER

The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam
54-25 153rd St.,
Flushing, NY 11355
646-675-0308
Counsel for Petitioner

RECEIVED
DEC 2 3 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

1

QUESTION(S) PRESENTED

The complaint of the plaintiff, -god's servant, Xiu
Jian Sun, the spiritual Adam respectfully shows and
alleges as follows
Jehovah, the Lord god of the host, sent the
messenger answered the defendant President of
U.S.A. MR. Donald John Trump — Cain's words
through the angel and saying, 'Cain, you love
Satan more than love the god of Jehovah'1.
litf;FVR
The Revelation of St John the Divine Chapter 17
And there came one of the seven angels which the
seven vials, and talked with me, saying unto me,
Come hither; I will shew unto thee the judgment of
the great whore that sitteth upon many waters:
With whom the kings2 of the earth have committed
fornication*(Look! President Donald John
Trump2 - Wang Xing Ren; Obama Barack -King
Herod; George W. Bush; Bill Clinton; George H.
W. Bush; Ronald Reagan; Jimmy Carter;
Gerald Ford; Richard Nixon), and the
inhabitants of the earth have been made drunk with

VI. CAUSE OF ACTION. C2
VI. CAUSE OF ACTION. C3

11

the wine of her fornication.
So he carried me away in the spirit into the
wilderness: and I saw a woman sit upon a scarlet
coloured beast, full of names of blasphemy, having
seven heads and ten horns.
And the woman was arrayed in purple and scarlet
colour, and decked with gold and precious stones and
pearls, having a golden cup in her hand full of
abominations and filthiness of her fornication:
And upon her forehead was a name written,
MYSTERY, BABYLON THE GREAT, THE
MOTHER OF HARLOTS AND ABOMINATIONS
OF THE EARTH.
And I saw the woman drunken with the blood of the
saints, and with the blood of the martyrs of Jesus:
and when I saw her, I wondered with great
admiration.
And the angel said unto me, Wherefore didst thou
marvel? I will tell thee the mystery of the woman,
and of the beast that carrieth her, which hath the
seven heads and ten horns.
The beast that thou sawest was, and is not; and
shall ascend out of the bottomless pit, and go into
perdition: and they that dwell on the earth shall
wonder, whose names were not written in the book

111

of life from the foundation of the world, when they
behold the beast that was, and is not, and yet is.
And here is the mind which hath wisdom. The
seven heads are seven mountains, on which the
woman sitteth.
And there are seven kings: five are fallen
(Servant in accordance of order: Harold B. Lee,
Spencer W. Kimball, Ezra Taft Benson,
Howard W. Hunter, Gordon B. Hinckley.
1972-2008), and one is, and the other is not yet come
(In the year of 2010, when reading this,
Jehovah, -the Lord god of host sent the
messenger said to servant in heart, "They are
like this in their previous life."1thingtail:g);
and when he cometh, he must continue a short
space.
November 26th-27th, 2012. the Lord god of host
Jehovah sent the messenger said to servant
(Plaintiff) through the angel: "Did not keep
promise". (aA-1-1-1*0)
A BOok of Doctrine and Covenants Section 101
Now, unto what shall I liken the children of Zion? I
will liken them unto the parable of the woman and
the unjust judge, for men ought always to pray and
not to faint, which saithThere was in a city a judge which feared not God,
neither regarded man.

iv
And there was a widow in that city, and she came
unto him, saying: Avenge me of mine adversary.
And he would not for a while, but afterward he
said within himself: Though I fear not God, nor
regard man, yet because this widow troubleth me I
will avenge her, lest by her continual coming she
weary me.
Thus will I liken the children of Zion.
Let them importune at the feet of the judge;
And if he heed them not, let them importune at
the feet of the governor;
And if the governor heed them not, let them
importune at the feet of the president;
5. Jehovah, - the Lord god of host gives the words to
servant (Plaintiff) in the temple he made, "Trial
with god's law. Apply for jury to prevent
insult and unfair behavior."

V

LIST OF PARTIES

Petitioner:
The Church of Jesus Christ of Latter-day saints
Servant: Xiu Jian Sun, the spiritual Adam
Respondents:
President of U.S.A. Mr.
Donald John Trump - Cain
The White House

vi

Apply for a Mandarin
Chinese interpreter

Clerk's Office:
I

( Servant) Petitioner would like to request a

Mandarin Chinese court interpreter for my appeal
court day.
Thank you.
The Church of Jesus Christ of Latter-day saints
Servant:
Xiu Jian Sun, the spiritual Adam

vii
TABLE OF CONTENTS

Questions Presented
List of Parties
Apply for a Mandarin Chinese interpreter

vi

Jurisdiction

1

Constitutional and Statutory Provisions Involved

3

Statement of the Case

5

Reasons for Granting the Writ

7

Conclusion

8

INDEX TO APPENDICES
Appendix A:
United States Court of Appeals for District of
Columbia Circuit: 19-5197
Al — A8
19-5197 Docket, General Docket
Appendix B:
Clerk's Order [1796375] filed directing party
to file initial submissions: Appellant
B1— B3
docketing statement due 08/08/2019

viii
Appendix C:
Appellant Brief [1800907] filed by Xiu Jian
Sun [Service Date: 07/30/2019] Length of
Brief: 1,850 words. [19-5197] [Entered:
08/06/2019 12:57 PM]

Cl -C7

Statement of Subject Matter and Appellate
Jurisdiction

Cl

Statement of the Issues Presented for Review .. C2 - C3
Statement of the Case
Statement of the Facts

C4
C5 - C7

Appendix D:
Appendix [1800909] filed by Xiu Jian Sun.
[Volumes: 1] [Service Date: 07/30/2019]
[19-5197] [Entered: 08/06/2019 01:08 PM] D1 - D32
U.S. District Court for the District of
Columbia Docket Sheet, Civil Docket for
Case#: 1 :18-cv-02820-RC

D1 -D4

Unopposed Motion for Extension of Time to
by Donald J. Trump (Attachments: # 1
Text of Proposed Order) (McBride, Patricia) . D5 - D7
Motion to Dismiss Plaintiffs Complaint by
Donald J. Trump (Attachments: # 1 Exhibit,
# 2 Text of Proposed Order) (McBride,

ix
Patricia) (Entered: 03/20/2019)

D8 - D19

Civil Statement from Church of Jesus Christ
Of Latter-Day Saints, Xiu Jian Sun. "Let
This Be Filed" by Judge Rudolph Contreras
on 4/15/2019. (tth)
D20 — D21
Fox/Neal Order advising Plaintiff to respond
by April 19, 2019 to .5. Defendant's
motion to dismiss or the Court may deem
the matter conceded. See document for
details. Signed by Judge Rudolph
Contreras on 3/20/19. (lcrcl), D22 - D24
Notice of Appeal as to 8 Order on Motion to
Dismiss by Xiu Jian Sun. Filing fee$ 505,
receipt number 4616099219. Fee Status:
Fee Paid. Parties have been notified. Gf) . D25 - D26
Memorandum Opinion and Order granting 5
Motion to Dismiss: See document for
details. Signed by Judge Rudolph
Contreras on 5/6/19. (lcrcl) Modified
event title on 6/7/2019 (znmw).
D27 - D32
Appendix E:
Certificate as To Parties, Rulings and Related
Cases [1801289] filed by Donald J. Trump
[Service Date: 08/08/2019] [19-5197]

x

(McBride, Patricia)
Entry of Appearance [1801298] filed by
Patricia McBride and co-counsel R. Craig
Lawrence on behalf of Appellee Donald J.
Trump. [19-5197] (McBride, Patricia)

El — E3

E4

Motion [1804405] for leave to file motion filed
by Donald J. Trump (Service Date: 08/30/
2019 by US Mail) Length Certification:
261 Words. [19-5197] (Lawrence, R.)
E5 - E6
Motion [1804406] for summary affirmance
(Response to Motion served by mail due on
09/09/2019) lodged by Donald J. Trump
(Service Date: 08/30/2019 by US Mail)
Length Certification: 779 Words. [195197]
-[Edited 08/30/2019 by DJR--Modified Event
From Filed To Lodged] (Lawrence, R.)
E7 - E10
Appendix F:
Clerk's Order [1806128] filed granting motion
for leave to file [1804405-2]; The Clerk is
directed to file motion for summary
affirmance [1804406-2]; directing response to
motion for summary affirmance [1804406-2]
Appellant Response due on 09/26/2019. The
Clerk is directed to send this order to
appellant by certified mail, return receipt
requested and by 1st class mail. [19-5197] ... Fl F2

1
JURISDICTION
USCA Case #19-5197 Document #1814981
Filed: 11/08/2019 Page 1 of 1
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 19-5197

September Term, 2019
1:18-cv-02820-RC
Filed On: November 8, 2019 [1814981]

Xiu Jian Sun, The Spiritual Adam,
Appellant
Church of Jesus Christ of Latter-day Saints,
Appellee
v.
Donald J. Trump, President of U.S.A., Mr.,
Appellee
ORDER
By order filed September 11, 2019, appellant was
directed to file a response to appellee's motion for
summary affirmance by September 26, 2019. To date,
no response has been filed by the appellant. Upon
consideration of the foregoing, it is
ORDERED that this case be dismissed for lack of
prosecution. See D.C. Cir. Rule 38.

2

The Clerk is directed to issue the mandate in this
case by December 23, 2019.

FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk

3
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Doctrine and Covenants Section 20
Revelation on Church organization and government,
given through Joseph Smith the Prophet, at or near
Fayette, New York. Portions of this revelation may
have been given as early as summer 1829. The
complete revelation, known at the time as the Articles
and Covenants, was likely recorded soon after April 6,
1830 (the day the Church was organized). The Prophet
wrote, "We obtained of Him [Jesus Christ] the
following, by the spirit of prophecy and revelation;
which not only gave us much information, but also
pointed out to us the precise day upon which, according
to His will and commandment, we should proceed to
organize His Church once more here upon the earth."
1). The rise of the Church of Christ in these last days,
being one thousand eight hundred and thirty years
since the coming of our Lord and Savior Jesus
Christ in the flesh, it being regularly organized and
established agreeable to the laws of our country, by
the will and commandments of God, in the fourth
month, and on the sixth day of the month which is
called AprilThe Doctrine and Covenants Section 42
83). And thus ye shall do in all cases which shall come

4
before you.
And if a man or woman shall rob, he or she shall
be delivered up unto the law of the land.
And if he or she shall steal, he or she shall be
delivered up unto the law of the land.
And if he or she shall lie, he or she shall be
delivered up unto the law of the land.
And if he or she do any manner of iniquity, he or
she shall be delivered up unto the law, even that of
God.
And if thy brother or sister offend thee, thou shalt
take him or her between him or her and thee alone;
and if he or she confess thou shalt be reconciled.
And if he or she confess not thou shalt
deliver him or her up unto the church, not to the
members, but to the elders. And it shall be done in
a meeting, and that not before the world.
And if thy brother or sister offend many, he or she
shall be chastened before many.
And if any one offend openly, he or she shall be
rebuked openly, that he or she may be ashamed.
And if he or she confess not, he or she shall be
delivered up unto the law of God.

5
STATEMENT OF THE CASE
The Lord god Jehovah sent the messenger, said to
spiritual Adam through the angel, 'unjust judge.'
On the date of March 09, 2017, when the
notification from United States District Court
Eastern District of New York is received, Jehovah,
-the Lord god of host sent the messenger speaks
to spiritual Adam, -plaintiff through angel, says:
"Pharisees don't even open the door""
Jehovah, the Lord god of host, sent the son of god,
(the revived Messiah) from God's temple gave
words to servant, said:' Pharisees' not even
move his one finger." 2(If110/9--1 -4giARci.h)
In the morning of date of December 10, 2016, when
the book of Brief of the Appellant made near
completion. The lord god of hosts sent the
messenger to the spiritual Adam through angel,
saying. "The Pharisees have appropriated
widow's possessions."3 (tt[14A0...19MPT?')
1

Civil Docket for Case #: 1:16-cv-01083- ENV-CLP, Court of Appeals Docket #:

2

16-950.
Civil Docket for Case #: 1:17-cv-1861-JDB, Court of Appeals Docket

3

#:18-5313. USCADC No. 18.5313
Court of Appeals Docket #: 16-3103. No. 17-366.

6
Prior to Pharisees sent letter to ask servant to
modify brief: The Lord god of hosts sent 'messenger
speaks to spiritual Adam- plaintiff, through the
angel, says: 'Pharisees even swallowed dead
people's bones.'4 (701.MAi.VEAntgiliTt)
In the nights from February 29th to March 1st,
2016, the Lord god of host, - Jehovah sent the
messenger said to servant, "seeking for profit,
gang organization5."
WIMI-RgEtC)
Jehovah,- the Lord of the host, sent the messenger
said to servant: 'Woe unto the Pharisees and
the lawyers."6 (rOMAfili-VA9MN1)

4

Court of Appeals Docket #: 16-3557. No. 17-1000.

5

Civil Docket for Case #: 1:16-cv-01083- ENV-CLP,
Court of Appeals Docket #: 16-950. USCAFC No. 16-1783, No. 16-756

6

Civil Docket for Case 1:16-cv-03937-LDH-LB,
Court of Appeals Docket #: 16-3103. No. 17-366.

7
REASONS FOR GRANTING THE WRIT

After ruling by the Small Claim Court, these are
the works given by Israeli God from Lord's temple,
"The civil magistrate should restrain crime, but never
control conscience, should punish guilt, but never
suppress the freedom of the soul." (101-1, -A-e-iiimi5--,
1 Tx\VIV.P;
fEl%Tql-i$11.R4111<7 121
flq .Pc171

8
CONCLUSION

The Doctrine and Covenants Section 42
If any shall offend in secret, he or she shall be
rebuked in secret, that he or she may have
opportunity to confess in secret to him or her
whom he or she has offended, and to God, that the
church may not speak reproachfully of him or her.
And thus shall ye conduct in all things.
Dated: Queens, New York
December 07, 2019
The Church of Jesus Christ of Latter-day saints
Servant:
Xiu Jian Sun, the spiritual Adam
54-25 153rd St.,
Flushing, NY 11355
(646) 675-0308
Plaintiffs

